U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Martin Rogelio Longoria v. United States, No. 20-5715

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 11,
2020. The government’s response is now due, after one extension, on December 4, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 2, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5715
LONGORIA, MARTIN ROGELIO
USA

SCOTT ANDREW MARTIN
FEDERAL PUBLIC DEFENDER
440 LOUISSIANA
STE. 1350
HOUSTON, TX 77002
713-718-4600
SCOTT_MARTIN@FD.ORG

